     Department of Homeland Security

     ��������������������������



     Annual Report to Congress on States’ and 

  Urban Areas’ Management of Homeland Security 

         Grant Programs Fiscal Year 2013





OIG-14-22                            December 2013

                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                                Washington, DC 20528 / www.oig.dhs.gov
                                                
                                      DEC 20 2013 
                                                
MEMORANDUM FOR:               Brian E. Kamoie 
                              Assistant Administrator  
                              Grant Programs Directorate  
                              Federal Emergency Management Agency  
 
FROM:                         Mark Bell 
                              Acting Assistant Inspector General for Audits  
 
SUBJECT:                      Annual Report to Congress on States’ and Urban Areas’ 
                              Management of Homeland Security Grant Programs 
                              Fiscal Year 2013 
 
Attached for your action is our final report, Annual Report to Congress on States’ and Urban 
Areas’ Management of Homeland Security Grant Programs Fiscal Year 2013. This report, 
required by Public Law 110‐53, Implementing Recommendations of the 9/11 Commission 
Act of 2007, is a summary of 11 individual audit reports completed in fiscal year 2013. The 
report summarizes the findings and recommendations made to the Federal Emergency 
Management Agency, requiring the States and urban areas to take corrective actions to 
improve their grant management programs. 
 
Consistent with our responsibility under the Inspector General Act, we will provide copies of 
our report to appropriate congressional committees with oversight and appropriation 
responsibility over the Department of Homeland Security. We will post the report on our 
website for public dissemination.  
 
Please call me with any questions, or your staff may contact John E. McCoy II, Deputy 
Assistant Inspector General for Audits, at (202) 254‐4100. 
 
Attachment 
 
 
 
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1

   Background ........................................................................................................................ 2

   Results of Audits ................................................................................................................ 3


   Appendixes
              Appendix A:           Objectives, Scope, and Methodology ............................................ 4
              Appendix B:           Audit Reports Included in this Report ............................................ 5
              Appendix C:           Scope of State and Urban Area Grant Program Management
                                    Audits ............................................................................................. 7 

              Appendix D:           Status of Audit Recommendations ................................................ 8 

              Appendix E:           Report Distribution ...................................................................... 10 



   Abbreviations
              DHS                   Department of Homeland Security
              FEMA                  Federal Emergency Management Agency
              FY                    fiscal year
              OIG                   Office of Inspector General
              SHSP                  State Homeland Security Program
              UASI                  Urban Areas Security Initiative




www.oig.dhs.gov                                                                                                                   OIG-14-22

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   Public Law 110-53, ImplementingfRecommendationsfoffthef9/11fCommissionfActfoff
   2007, requires the Department of Homeland Security (DHS), Office of Inspector General
   (OIG), to audit individual States’ management of State Homeland Security Program and
   Urban Areas Security Initiative grants, and annually submit to Congress a report
   summarizing the results of those audits. This report responds to the annual reporting
   requirement and summarizes audits of 10 States and 1 urban area completed in fiscal
   year 2013: Connecticut, Indiana, Kentucky, Massachusetts, Mississippi, Nebraska, North
   Carolina, Rhode Island, Virginia, Wisconsin, and Illinois (Urban Areas Security Initiative
   only).

   The objectives of the State and urban area audits were to determine whether each State
   and urban area distributed and spent the grant funds (1) effectively and efficiently, and
   (2) in compliance with applicable Federal laws and regulations. We also addressed the
   extent to which grant funds enhanced the States’ and urban area’s ability to prevent,
   prepare for, protect against, and respond to natural disasters, acts of terrorism, and
   other manmade disasters. The audits included more than $668 million in State
   Homeland Security Program and Urban Areas Security Initiative grants awarded to the
   10 States and 1 urban area during 3-year or 4-year periods between fiscal years 2006
   and 2011.

   In most instances, the States and urban area did an efficient and effective job of
   administering the grant program requirements in compliance with grant guidance and
   regulations. Additionally, we identified two innovative practices that can be considered
   for use by other jurisdictions.

   Two major areas were identified for improvement: strategic planning and oversight of
   grant activities. We also identified more than $5.7 million in questioned costs. We made
   76 recommendations addressing these areas. In its corrective action plans, the Federal
   Emergency Management Agency (FEMA) concurred with 70 of the recommendations.




www.oig.dhs.gov                                1                                        OIG-14-22

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Background
   Public Law 110-53, ImplementingfRecommendationsfoffthef9/11fCommissionfActfoff
   2007, requires DHS OIG to annually submit to Congress a report summarizing completed
   audits of State Homeland Security Program (SHSP) grants and Urban Areas Security
   Initiative (UASI) grants awarded to States, territories, and the District of Columbia. This
   report summarizes our fiscal year (FY) 2013 audits of the management of Homeland
   Security Grant Program funds awarded to 10 States and 1 urban area, as indicated in
   table 1.1

   Table 1: Audits Included in This Report
                                    Fiscal Years          SHSP Grant Awards         UASI Grant Awards
                  State
                                     Reviewed                   (000)                     (000)
       Connecticut                 2008 – 2010                   $28,820                   $15,083

       Indiana                     2008 – 2011                   $35,610                   $21,688

       Kentucky                    2008 – 2010                   $26,191                     $5,829

       Massachusetts               2008 – 2011                   $55,995                   $66,216

       Mississippi                 2008 – 2010                   $19,318                         $0

       Nebraska                    2009 – 2011                   $18,275                     $1,013

       North Carolina              2008 – 2010                   $47,439                   $13,985

       Rhode Island                2008 – 2010                   $19,308                   $14,544

       Virginia                    2008 – 2010                   $60,529                   $29,571

       Wisconsin                   2008 – 2010                   $30,511                   $12,811

       Illinois UASI               2006 – 2008                    N/A                     $145,401

       TOTAL                                                    $341,996                  $326,141
   Source: DHS OIG.

   Appendixes A and C provide additional details on the purpose, scope, and methodology
   of this report and the State and urban area grant management audits. Appendix B
   provides Internet links to the individual reports.


   1
    The term “State” means any one of the 50 States, the District of Columbia, Puerto Rico, the Northern
   Mariana Islands, the Virgin Islands, Guam, American Samoa, and any other territory or possession of the
   United States.

www.oig.dhs.gov                                       2                                               OIG-14-22

                                       OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


   Results of Audits
   In most instances, the States and urban area did an efficient and effective job of
   administering grant program requirements in compliance with grant guidance and
   regulations. We also identified two innovative practices that can be considered for use
   by other jurisdictions.2

   Our audit reports identified two major areas for improvements: strategic planning and
   oversight of grant activities. We also identified more than $5.7 million in questioned
   costs in Massachusetts ($4,069,772), Mississippi ($991,681), and Virginia ($660,230). We
   made 76 recommendations to FEMA that, when implemented, should strengthen
   program management, performance, and oversight. In its corrective action plans, FEMA
   concurred with 70 of the recommendations and did not concur with
   6 recommendations. Table 2 summarizes the audit recommendations for FY 2013 by
   category and status. Details by jurisdiction are included in appendix D.

   Table 2: Status of Audit Recommendations
                                                              FEMA Concurrence          Status:
                  Areas for Improvement              Issued
                                                                 Yes    No           Open Closed
       I. State Strategic Planning Processes
       Fully measurable and achievable goals and
                                                       17       17          0         3          14
       objectives
       Capabilities/risk assessments                   5        4           1         0           5

       Subtotal                                        22       21          1         3          19

       II. State Oversight of Grant Activities
       Allocation, obligation, and expenditure of
                                                       12       10          2         8           4
       grant funds
       Monitoring of subgrantee activities             11       11          0         7           4

       Financial management, reporting, and costs      7        6           1         6           1
       Compliance with procurement and property
                                                       24       22          2         15          9
       management requirements
       Subtotal                                        54       49          5         36         18

       Total                                           76       70          6         39         37
   Source: DHS OIG.

   2
    OIG-13-33 Wisconsin’sfManagementfoffHomelandfSecurityfProgramfandfUrbanfAreasfSecurityfInitiativef
   GrantsfAwardedfDuringfFiscalfYearsf2008fThroughf2010fand OIG-13-41 Kentucky’sfManagementfoffStatef
   HomelandfSecurityfProgramfandfUrbanfAreasfSecurityfInitiativefGrantsfAwardedfFiscalfYearsf2008-2010.

www.oig.dhs.gov                                        3                                          OIG-14-22

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The purpose of this report, prepared in accordance with Public Law 110-53,
   ImplementingfRecommendationsfoffthef9/11fCommissionfActfoff2007,fwas to assess and
   summarize the audit reports completed during FY 2013 on SHSP and UASI grants
   awarded to States, territories, and the District of Columbia. Specifically, we were to
   determine (1) the number of audits conducted and completed; (2) whether findings are
   applicable to the mandate; (3) whether the funds awarded were used in accordance
   with the law, program guidance, and State homeland security plans and other applicable
   plans; and (4) the extent to which funds awarded enhanced the ability of a grantee to
   prevent, prepare for, protect against, and respond to natural disasters, acts of terrorism
   and other manmade disasters.

   The audit reports included in this annual consolidated report to Congress were the
   result of 11 audits conducted by OIG and by independent public accounting firms under
   contract to OIG. Appendix B provides citations and Internet links to each report.

   The audits summarized in this report were conducted pursuant to the InspectorfGeneralf
   Actfoff1978, as amended, and according to generally accepted government auditing
   standards. Those standards require that we plan and perform the audit to obtain
   sufficient, appropriate evidence to provide a reasonable basis for our findings and
   conclusions based upon our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based upon our audit
   objectives. No additional audit work was performed in preparing this report.




www.oig.dhs.gov                                4                                        OIG-14-22

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Appendix B
   Audit Reports Included in this Report
                                              Report       Date
                   Report                                                      Internet Link
                                              Number      Issued
    The State of Illinois’ Management of     OIG-13-08   11/09/12   http://www.oig.dhs.gov/assets/Mgmt/
    Urban Areas Security Initiative Grants                          2013/OIG 13-08 Nov12.pdf
    Awarded During Fiscal Years 2006
    Through 2008
    The Commonwealth of Virginia's           OIG-13-10   11/14/12   http://www.oig.dhs.gov/assets/Mgmt/
    Management of State Homeland                                    2013/OIG 13-10 Nov12.pdf
    Security Program and Urban Areas
    Security Initiative Grants Awarded
    During Fiscal Years 2008 Through 2010
    The State of Rhode Island’s              OIG-13-16   12/11/12   http://www.oig.dhs.gov/assets/Mgmt/
    Management of State Homeland                                    2013/OIG 13-16 Dec12.pdf
    Security Program and Urban Areas
    Security Initiative Grants Awarded
    During Fiscal Years 2008 Through 2010
    Wisconsin’s Management of Homeland       OIG-13-33   01/30/13   http://www.oig.dhs.gov/assets/Mgmt/
    Security Program and Urban Areas                                2013/OIG 13-33 Jan13.pdf
    Security Initiative Grants Awarded
    During Fiscal Years 2008 Through 2010
    Kentucky’s Management of State           OIG-13-41   02/27/13   http://www.oig.dhs.gov/assets/Mgmt/
    Homeland Security Program and Urban                             2013/OIG 13-41 Feb13.pdf
    Areas Security Initiative Grants
    Awarded Fiscal Years 2008-2010
    Connecticut’s Management of              OIG-13-43   02/28/13   http://www.oig.dhs.gov/assets/Mgmt/
    Homeland Security Program Grants                                2013/OIG 13-43 Feb13.pdf
    Awarded During Fiscal Years 2008
    Through 2010
    Massachusetts’ Management of             OIG-13-44   02/28/13   http://www.oig.dhs.gov/assets/Mgmt/
    Homeland Security Grant Program                                 2013/OIG 13-44 Feb13.pdf
    Awards for Fiscal Years 2008 Through
    2011
    Indiana’s Management of State            OIG-13-45   02/28/13   http://www.oig.dhs.gov/assets/Mgmt/
    Homeland Security Program and Urban                             2013/OIG 13-45 Feb13.pdf
    Areas Security Initiative Grants
    Awarded During Fiscal Years 2008-2011
    Mississippi’s Management of State        OIG-13-72   04/09/13   http://www.oig.dhs.gov/assets/Mgmt/
    Homeland Security Program Grants                                2013/OIG 13-72 Apr13.pdf
    Awarded During Fiscal Years 2008
    through 2010




www.oig.dhs.gov                                     5                                             OIG-14-22

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


                                         Report        Date
                  Report                                                   Internet Link
                                         Number       Issued
    North Carolina’s Management of      OIG-13-74    04/16/13   http://www.oig.dhs.gov/assets/Mgmt/
    Homeland Security Program Grants                            2013/OIG 13-74 Apr13.pdf
    Awarded During Fiscal Years 2008
    Through 2010
    Nebraska’s Management of Homeland   OIG-13-109   08/19/13   http://www.oig.dhs.gov/assets/Mgmt/
    Security Grant Program Awards For                           2013/OIG 13-109 Aug13.pdf
    Fiscal Years 2009 Through 2011




www.oig.dhs.gov                                6                                              OIG-14-22

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix C
   Scope of State and Urban Area Grant Program Management
   Audits
   The purpose of each State audit was to determine whether the State distributed and
   spent SHSP and UASI grant funds (1) effectively and efficiently, and (2) in compliance
   with applicable Federal laws and regulations and DHS guidelines. We were to also
   address the extent to which grant funds enhanced the State’s ability to prevent, prepare
   for, protect against, and respond to natural disasters, acts of terrorism, and other
   manmade disasters.

   The scope of the audits included the plans developed by the States and urban areas to
   improve preparedness and all-hazards response, the goals set within those plans, the
   measurement of progress toward the goals, and the assessments of performance
   improvement that result from this activity. Furthermore, the scope included an
   assessment of these activities within the context of risk to determine whether the
   States’ plans produced strategic performance improvements related to the areas of
   highest risk, rather than merely producing improvements in a broader sense.

   The entire Homeland Security Grant Program and its interrelated grant programs fund a
   range of preparedness activities, including planning, organization, equipment purchase,
   training, exercises, and management and administration costs. Because of the
   interrelationship of these grant programs, all were considered when evaluating the
   planning cycle and the effectiveness of the overall grant program. However, only SHSP
   and, where applicable, UASI funding, equipment, and supported programs were
   reviewed for compliance.

   The scope of the audits included SHSP and UASI grants, where applicable, for FYs 2006
   through 2008, FYs 2008 through 2010, FYs 2008 through 2011, or FYs 2009 through
   2011. Appendix B lists specific years for individual States and urban areas.




www.oig.dhs.gov                               7                                       OIG-14-22

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Appendix D
   Status of Audit Recommendations

                                                          FEMA Concurrence     Status:
               Areas for Improvement             Issued
                                                             Yes    No       Open Closed
    I. State Strategic Planning Processes
    Fully measurable and achievable goals
                                                  17        17        0       3      14
    and objectives
        Illinois UASI                                 1      1                        1
        Indiana                                       1      1                1
        Kentucky                                      2      2                        2
        Massachusetts                                 2      2                        2
        Mississippi                                   3      3                        3
        Nebraska                                      2      2                2
        North Carolina                                2      2                        2
        Rhode Island                                  2      2                        2
        Virginia                                      1      1                        1
        Wisconsin                                     1      1                        1
    Capabilities/risk assessments                   5        4        1       0       5
        Illinois UASI                                 2      2                        2
        Kentucky                                      1      1                        1
        Nebraska                                      1               1               1
        North Carolina                                1      1                        1

    Subtotal                                      22        21        1       3      19

    II. State Oversight of Grant Activities
    Allocation, obligation, and expenditure of
                                                  12        10        2      8        4
    grant funds
        Connecticut                                   1      1                1
        Illinois UASI                                 1      1                        1
        Indiana                                       2      2                1       1
        Massachusetts                                 3      1        2       3
        Mississippi                                   1      1                1
        Nebraska                                      1      1                1
        North Carolina                                1      1                1
        Virginia                                      2      2                        2




www.oig.dhs.gov                                   8                                   OIG-14-22

                               OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


                                                       FEMA Concurrence     Status:
               Areas for Improvement         Issued
                                                          Yes    No       Open Closed
    Monitoring of subgrantee activities        11        11         0     7        4
        Connecticut                                1      1                1
        Indiana                                    1      1                1
        Massachusetts                              1      1                1
        Mississippi                                1      1                1
        Nebraska                                   1      1                1
        North Carolina                             1      1                1
        Rhode Island                               2      2                        2
        Virginia                                   1      1                1
        Wisconsin                                  2      2                        2
    Oversight of financial management,
                                                7         6         1      6       1
    reporting, and costs
        Massachusetts                              2      1         1      2
        Mississippi                                2      2                2
        North Carolina                             1      1                1
        Virginia                                   2      2                1       1
    Compliance with procurement and
                                               24        22         2     15       9
    property management requirements
        Illinois UASI                              4      4                1       3
        Indiana                                    1      1                1
        Kentucky                                   2                2              2
        Massachusetts                              3      3                3
        Mississippi                                5      5                5
        Nebraska                                   2      2                2
        North Carolina                             2      2                2
        Rhode Island                               2      2                        2
        Virginia                                   1      1                1
        Wisconsin                                  2      2                        2

    Subtotal                                   54        49         5     36      18

    Total                                      76        70         6     39      37




www.oig.dhs.gov                                9                                   OIG-14-22

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix E
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grant Programs Directorate
   Federal Emergency Management Agency Audit Liaison
   Grant Programs Directorate Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  10                        OIG-14-22

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
